                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM




          There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          In May 1993, OIG received an allegation of scientific misconduct against the subject,' alleging that
          he had misrepresented the beginning dates of his position, his Ph.D. receipt, and the receipt of an
          award from the Office of Naval Research in order to qualify for a specific program. In addition, it
          was alleged that he submitted equivalent proposals to NSF and ONR.

          OIG investigated and determined that the subject had in fact misrepresented his date of Ph.D.
          Consequently, the program administrator returned the proposal. The US Attorney declined
          prosecution. OIG also concluded that the subject's two proposals were significantly different. The
          institution reprimanded the subject for listing an award that he had never received.

          OIG found no pattern of fraud, and it believes these errors were the mistakes of an inexperienced
          investigator. Therefore, no further action is necessary to protect federal funds.

                    Accordingly, this case is closed.




          ' Dr. ,         an Assistant Professor of Mechanical and Aerospace Engineering at   I

NSF OIG Form 2 (1 1/02)
                                CLOSEOUT FOR 1-93060021
       On 24 May 1993. OIG received allegations of misconduct in science from an



tenure-track amointment at the institution and the date he received h& P ~ . D .fiom the


the targeted program. To be eligible to compete in the targeted prograrh, applicants had to                          /I



have received their Ph.D. degree and begun their tenure-track appointment after dates "
specified in the Program Announcement. Additional allegations reviewed in this case were
that the subject a) misrepresented the starting date for his postdoctoral fellowship
appointment in the Biographical S                                 as well as in two other NSF
proposals;1 b) misrepresented an                                (other agency) ward2 in his
targeted proposal
         -   -    that he never                                  equivalent proposals to N S F ~
and to the 6ther agency4 without informing NSF as required; and d) failed-to include an                             ?I

internally funded award that he had received from his institution5 in his Current and Pending    (i
Support (CPS) section in three NSF proposals.6

        Because some of the allegations directly affected a pending funding decision by NSF,
OIG immediately initiated an investigation and sent investigators to the grantee institution to
interview the subject and gather information. OIG determined that there was no substance to
the allegation that the subject misrepresented the beginning date of his tenure-track                          ,    ,'
                                                                                                                   111




 was nine months later than the beginning date shown in the demgranting institution's ofiicial records.   He




                                           Page 1 of 4                                           I93-2 1
                             CLOSEOUT FOR 1-93060021

appointment in his targeted proposal. However, it determined that five allegations, discussed
below, had substance, including the subject's misrepresentation of his Ph.D. award date in his
targeted proposal. Transcripts from the degree-granting institution indicated that the subject
received his Ph.D. nine months earlier than he stat'ed in his targeted proposal. The date on the
subject's transcript for the receipt of his Ph.D. made him ineligible for the targeted program.        1' 1
  ..,   OIG notified the NSF administrator in charge of the targeted program about the
subject's official Ph.D. receipt date. The administrator determined that the subject's proposal
was inappropriate and returned it to him. This allowed the program to allocate these funds7to
other applicants. OIG referred this matter to the appropriate United States Attorney's Office           I


f& evaluation. The Attorney's Offroe declined prosecution because the subjed had not
                                                                                                       Ill
received any federal funds from the targeted program. At this point, because the NSF                   I!
program had been able to allocate the funds to other applicants and because the allegations
had substance, OIG suspended its investigation and referred the case to the grantee institution
for investigation to resolve the allegations of misconduct in science. The results of the
institution's and OIG's investigations are summarized below.

        Allenation #1: The subiect misrepresented his transcript Ph.D. date in his tarneted        I
                                                                                                       lili
                                                                                                       !I
proposal. The subject, a foreign national, explained that he first changed his Ph.D. date on
NSF proposal submissions8two years before he submitted his targeted proposal. He said that
he made the change to observe his culture's tradition of recognizing the formal
commencement date as the achlal date of degree receipt. The institution's investigation
committee confirmed that the subject first changed his transcript Ph.D. date to the
commencement date in an NSF proposal submission two years prior to his targeted proposal
application, and that he used this commencement date consistently up to, and including, his            41
targeted proposal submission. The committee concluded that the subject's decision to change
his transcript Ph.D. date was

       based on rational grounds but showed poor judgment in that he did not
       recognize the obvious questions which might arise as a result of his action.
                                                                                                       Ill
The committee concluded that the subject did not commit misconduct in science when he                  :
used his commencement Ph.D. date in his targeted NSF proposal.

       OIG agreed with the committee that the act, given the circumstances surrounding the
subject's change of his Ph.D. date, was not a serious deviation fiom accepted practice.




                                         Page 2 of 4
                         i

                             CLOSEOUT FOR 1-93060021

                                                                                                       !,
       Allegation #2: The subiect misrepresented the starting date for his post-doctoral
fellowship in the Biographical Sketch in his targeted proposal and in other NSF proposals.
The subject claimed that he made the change because he thought his work associated with the
post-doctoral fellowship did not significantly change from his original thesis work until after
he received his Ph.D. The committee did not consider this issue directly. Instead, it stated
that the subject changed his post-doctoral fellowship starting date to coincide with his               )I
changed Ph.D. date. It made no other comment or decision on this allegation.

        OIG determined that the precise starting date for the subject's post-doctoral fellowship
was not germane to NSF's review or funding of the subject's NSF proposals. OIG concluded
that, in this case, the issue was not sufficiently serious to be pursued further in an
investigation.                                                                                         I\;




       Allegation #3: The subiect submitted essentially similar proposals to NSF and the
other agency without indicating to NSF that he had done so. The committee received a
written explanation from the subject that listed the similarities and differences between the
two proposals. After it reviewed the proposals and the subject's explanation, the committee
determined that, although the proposals were similar in many respects, the mathematical                11
principles and the technical approaches presented in the two proposals were hndamentally
different. The committee concluded that the subject did not commit misconduct in science.

       The committee's decision, that the proposals were fundamentally different, resulted
from their review of the proposals with the added assistance of information provided by the
subject. This information listed, point by point, the differences in goals and approaches
between the proposals. OIG accepted the committee's evaluation of the proposals and
                                                                                                   ,    ,:
                                                                                                       '14~;


concluded that the evidence did not support the allegation.

        Allegation #4: The subject misrepresented in his targeted proposal that he received an
award fiom the other a e n c v that he did not receive. The subject explained that he called the
program oEcer at the other agency who told him that his proposal was on the "short list." He            Ill
said that, as a result of this call, he assumed that he would receive the award and, therefore,             I

listed it in his proposal. The committee was sympathetic to the fact that the subject was an
"inexperienced junior faculty member" who may have arrived at an incorrect conclusion from
his conversations with [the other agency's program officer], but concluded that the subject
had seriously deviated fiom accepted practice and committed misconduct in science when he
listed an award in his proposal that he did not have. Subsequently, the institution reprimanded
                                                                                                        I   111I
the subject for this action.

        OIG concluded that the actions taken by the institution were sufficient and that no
further action was necessary to protect federal funds.



                                        Page 3 of 4
                        I                                       I

                             CLOSEOUT FOR 1-93060021

        Allegation #5: The subiect failed to list internal funding he had received from his
institution in the CPS section of three NSF proposals submitted prior to his targeted proposal.
The subject explained that he did not realize that internally supported research was to be listed
on external proposal applications. The investigation committee explained that it was the
institution's policy that internal awards be recognized as equal to external awards and that
they be included on all applications. The committee determined that the subject's omission
was mostly due to his inexperience. It concluded that the subject did not commit misconduct
in science.

        OIG agreed with the committee that, because the subject had included his internal
                                                                                                    "
finding on the targeted proposal's CPS section, he was now aware that internal finding was
to be included in NSF proposal applications. OIG concluded that, although this is a deviation       1
&om accepted practice, in this case it is not serious and was not misconduct in science under
NSF's definition.

        Conclusion: The subject's use of the commencement Ph.D. date rather than his
transcript Ph.D. date extended his eligibility for the targeted NSP program. The program
determined that, based on his transcript Ph.D. date, the subject was ineligible for the targeted
program and that his proposal was inappropriate. The subject's proposal was returned to him
                                                                                                    ,I
and consequently he received no federal support. Given these circumstances, OIG concluded
that the institution's investigation, its finding, and its reprimand of the subject, who was a
young and inexperienced investigator, were sufficient to protect federal funds and no further
action was required.

       This investigation is closed and no further action will be taken by OIG.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 4 of 4
